Na<_*

./ fc r
Vw> % y

IN THE

Supreme CF*
°urt, u.S.
«16D

SUPREME COURT OF THE UNITED STATES

SEP 2 g 2020
SSSOFngo™,

AND! MUSTAFA

- PETITIONER

(Your Name)
vs.
STATE OF MTCHTGAN

- RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

COURT OF APPEALS. STATE OF MICHIGAN_____________________

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

ANDI MUSTAFA

(Your Name)

MICHIGAN REFORMATORY PRISON
1342 W MAIN ST
(Address)
IONIA MI 48846

(City, State, Zip Code)

(Phone Number)

L------ J

STATEMENT OF QUESTIONS PRESENTED

I,

Is Plaintiff entitled to withdraw his no contest plea when
he was not interrogated by the judge to determine the
factual basis for his plea and the Judge did not state
her reasons for concluding that the proper administration
of justice did not require Mr, Mustafa to be Interrogated
regarding his participation in a crime?

II.

Is Mr. Mustafa entitled to withdraw his plea where the
initial search of his residence was illegal and subsequent
searches were done without a valid warrant or the search
warrants that were overbroad?

Ill,

Is Mr, Mustafa entitled to withdraw his plea and request
a new trial or evidentiary hearing after Mr. Mustafa entered
an involuntary plea because retained counsel rendered
ineffective assistance when he failed to ensure the plea
record contained sufficient information to establish a
factual basis for each charged offense to which Plaintiff
pled no contest?

l

LIST OF PARTIES

£xj All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

» t

(I

TABLE OF CONTENTS

1

OPINIONS BELOW
JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3
4

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

6

CONCLUSION

9

INDEX TO APPENDICES

APPENDIX A - COURT OF APPEALS OPINION, JAN 17,2020
APPENDIX B

STATE SUPREME COURT DECISION, 6/30/2020

APPENDIX C - 5TRtl

circuit

coova opinion,

APPENDIX D

APPENDIX E

APPENDIX F

* •i

in

\8,eoig>

INDEX OF AUTHORITIES
U.S. SUPREME COURT:
7, 8

Hill v. Lockhart, 474 US 52; 106 S.Ct 366
Libretti y. United States, 516 US 29; 116 S.Ct 356

8

McMann y. Richardson, 396 US 759

.......•

8

North Carolina v. Alford, 400 US 25 ...............

7

Padilla v. Kentucky, 559 US 356; 130 S.Ct 1473 ....

8

Powell y. Alabama, 287 US 45; 53 S.Ct 55

7

Riley y. California, 134 S.Ct 2473 ........................

6

Rompilla y. Beard, 545 US 374 ...............................

6

Strickland v. Washington, 466 US 668; 104 S.Ct 2052

8

Toilet v. Henderson, 411 US 258 ......................•**

8

United States V. Cronic, 466 US 648; 104 S.Ct 2089

7

Wiggins y. Smith, 539 US 510; 123 S.Ct 2527 .........

7

FEDERAL COURTS:
............... .

6

Holtgrieve y. Curtis, 174 F.Supp.2d 572 ...............

6

Rarlc v. United States, 2016 US LEXIS 3607 ..........

6

United States v. Goldberg, 862 F2d 101

STATE COURTS:
People y. Booth, 324 Ntf2d 741

............... ...............

6

STATUTES:
28 USC 1257(a)

2

............... .

U.S. Constitution Amendment IV

3

U.S. Constitution Amendment XIV

3

W

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
■£%] For cases from state courts:
The opinion of the highest state court to review the merits appears at
to the petition and is
Appendix _a
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
—3

The opinion of the _
appears at Appendix

_ court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was-------------------------------- ♦
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
and a copy of the
Appeals on the following date: -----------------order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including--------in Application No. —A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

£x] For cases from state courts:
The date on which the highest state court decided my case was 6/30/2020
A copy of that decision appears at Appendix B
[ ] A timely petition for rehearing was thereafter denied on the following date:
_____________________ and a copy of the order denying rehearing
appears at Appendix--------- .
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including
A
Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

STATC20KT AMD CONSTITUTIONAL PROVISIONS INVOLVED
The following statutory and constitutional provisions are involved
in this case.
U.S, CONST., AMEND, IV
The right of the people to be secure in their persons, houses, papers,
and effects, against unreasonable searches and seizures, shall not be
violated, and no Warrants shall issue, but upon probable cause, supported
by Oath or affirmation, and particularly describing the place to be searched,
and the persons or things to be seized.
U.S. CONST., AMEND VI
In all criminal prosecutions, the accused shall enjoy the right to
a speedy and public trial, by an impartial jury of the State and district
wherein the crime shall have been committed, which district shall have been
previously ascertained by law, and to be Informed of the nature and cause
of the accusation? to be confronted with the witnesses against him? to have
compulsory process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defense,
U.S. CONST., AMEND. XIV
Section 1. All persons born or naturalized in the United States, and
subject to the jurisdiction thereof are citizens on the United States and
of the State wherein they reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life, liberty, or property,
without due process of law? nor deny to any person within its jurisdiction
the equal protection of the laws.

3

STATEMENT OF THE CASE
Petitioner, And! Mustafa, was arrested on February 14, 2018 for breaking
and

entering.

Petitioner

was

charged

with

four

(4)

felony

counts

(18-266944-FH). Based upon the February 14, 2018 arrest and investigative
information, detectives obtained a search warrant on February 15, 2018 to
search Petitioner's residence.
Based upon this arrest and search warrant, on February 20, 2018, the
police issued a search warrant for Petitioner's Google Email accounts. This
provided detectives with over seven (7) years worth of GPD historical location
data. From this data, Petitioner Mustafa was accused and charged with thirteen
(13) additional felony counts. Eleven (11) counts from the City of Bloomfield
(Case No.

18-266954-FH). One (1) count in the city of Novi (Case No.

18-267073-FH), and one (1) count in the city of Troy, Michigan (Case No.
18-267188-FH).
Petitioner had little contact with his retained attorney during the
course of the prosecution. He never received any polic reports or copies
of the search warrants related to his cases.
At the plea hearing, held July 17, 2018, Petitioner was forced to plea
Nolo Contendre to all 17 felony counts. The trial court explained, that based
upon the discussions in the Judges chambers between the prosecution, Defense
Attorney and the Judge, Petitioner would receive a minimum prison sentence
of nine (9), while neglecting to address, on the record, the scoring
guidelines to determine which bracket Petitioner fell under, (Plea Heairng
Trscrpt, 11-12). He also failed to ensure the plea record contained sufficient
information to establish any factual basis for each offense to which
Petitioner pleaded No Contest,
On September 18, 2018, the trial court sentenced Petitioner to a term

4

of 9 years.
After sentencing, Petitioner filed a motion to withdraw his No Contest
plea and for re-sentencing, claiming ineffective assistance of counsel because
counsel failed to ensure the plea record contained sufficient information
to establish a factual basis for each offense to which Petitioner pleaded
no contest. The motion was heard and denied by the trial court on June 12,
2019,
Petitioner then filed a delayed application for leave to appeal in the
Michigan Court of Appeals on December 5, 2019, raising four (4) grounds for
relief. The Court of Appeals denied the application on January 17, 2020,
for lack of merit on the grounds presented. See Appendix A, (Mich. Ct, App.
Order, Dckt No, 351857).
Petitioner then filed an application for leave to appeal to the Michigan
Supreme Court, which was denied on June 30, 2020, See Appendix B, People
v, Mustafa. 944 NW2d 705, 2020 WL 3568514,

5

REASONS FOR GRANTING THE WRIT
I, THE STATE COURT ERRONEOUSLY CONCLUDED THAT THERE WAS A
FACTUAL BASIS ELICTED TO SUSTAIN PETITIONER'S NO CONTEST PLEA.
In the case of a plea of nolo contendere, the standard to be applied by an
appellate court In Its review of the adequacy of factual bases for a plea
is whether the trier of fact could properly convict on the facts elicted
from reliable sources. People v. Booth. 414 Mich 343, 360, 324 NW 2d 741,
Holtarelve v. Curtis. 174 F. Supp. 2d 572, 583 (ED Mich 2001). See also United
States v. Goldberg. 862 F2d 101 (CA6 1988)(Defendant's guilty plea was vacated
because it was not accompanied by a determination that there was a factual
basis for plea).

THE STATE COURTS NEVER REVIEWED OR DETERMINED
THE MERITS OF PETITIONER'S QUESTION.
The Fourth Amendment demands that a search warrant "particularly describe
the places law enforcement may search and the things they may seize.

Rilei

v. California, 134 S.Ct 2473, 139 L.Ed 2d 430 (2014). Defense never pursued
these issues as it related to possible defective warrants, Raric V.„ United.
States. 2016 US LEXIS 3607 (2016),
In Rompilla v. Beard, the Supreme Court established the standard of
reasonable compentence required on the part of defense counsel by the 6th
Amendment. Rompllla v. Beard, 545 US 374. The notion that defense counsel
must obtain information that the state has and will use against the defendant
is not simply a matter of common sense.

"It is the duty of the lawyer to conduct a prompt investigation of the
circumstances of the case and to explore all avenues leading to the
facts relevant to the merits of the case and the penalty in the event
of conviction. The investigation should always include efforts to secure
information in the possession of the prosecution and law enforcement
authorities. The duty to investigate exists regardless of the accused s

6

admissions or statements to the lawyer of facts constituting guilt or
the accused1s stated desire to plead guilty1 ABA standards for
Criminal Justice 4-4.1 (2d, ed, 1932 3upp.) Id. at 387*
The Supreme Court has long referred to these ABA standards as "guides
to determining what is reasonable.'1 Wiggins v, Smith, 539 US 510# 524; 156
L.Ed 2d 471 (2003),
In this case, trial counsel failed to investigate and discover the
unconstitutionality of the warrants and search of Petitioner's residence
and Email accounts.
Had Petitioner been aware of these Fourth Amendment violation, he would
not have plead No Contest, Instead he would have elected to go to trial.
Certiorari should be granted to correct this error.

Ill, THE STATE COURT ERRONEOUSLY CONCLUDED THAT TRIAL COUNSEL
WAS NOT INEFFECTIVE IN FAILING TO ADVOCATE FOR HIS CLIENT CONCERNING
HIS PLEA AGREEMENT.
A plea functions as a waiver of constitutional rights. It must be knowing
and voluntary to be valid.
The right to the effective assistance of counsel is enshrined in our
state and federal constitutions and "is a fundamental component of our
criminal justice system," United States v« Create, 466 US 648, 653; 104 S.Ct,
2039 (1984); US Const. AMs VI, XIV. The right to counsel applies to all
critical stages of criminal proceedings, including plea proceedings. Hill
v, Lockhart. 474 US 52, 58; 106 S.Ct. 366 (1985). " P erhaps the most criticel
period of the proceedings • + a is the time of
beginning of

•••

••.

arraignment until the

trial," Powell v. Alabama, 287 US 45, 47; 53 S.Ct. 55 (1932),

The longstanding test for determining the validity of e guilty plea
(in the present instance No Contest) is "whether the plea represents a
voluntary and intelligent choice among the alternative course of action open

7

to the defendant*" North Carolina t* Alford. 400 U3 25, 31 (1970).
Where a defendant is represented by counsel during the plea process
and enters his plea upon the advice of counsel( the voluntariness of the
plea depends on whether counsel's advice "was within the range of compentence
demanded of attorneys in criminal cases" McMann v, Richardson, 397 US 759,
771 (1970), As the Supreme Court explained in Tollett v. Henderson, 411 US
258 (1973), a defendant who pleas guilty upon the adive of counsel "may only
attack the voluntary and intelligent character of the guilty plea by showing
that the advice he received from counsel was not within the standards set
forth in McMann*" Td, at 267.
During these pretrial stages, counsel has "critical obligation" to
"advise the client of 'the advantages and disadvantages of a plea agreement'"
Padilla v* Kentucky. 559 US 356, 370; 130 S.Ct. 1473 (2010), quoting Libretti
v. United States. 516 US 29, 50-51; 116 S.Ct 3561 (1995). This obligation
includes informing a defendant of any statutory and constitutional rights
that a guilty plea might waive. Id, at 50-51.
Thus "the two-part Strickland test applies to challenges to guilty pleas
based on Ineffective assistance of counsel." Hill, 474 US at 53. Prejudice
following a guilty plea "focuses-'on whether counsel's constitutionally
deficient performance effected the outcome of the plea process," Id, at 59,
In other words, to prevail on a claim of ineffective assistance of counsel
in the plea context, a defendant must show that there is a reasonable
probability that, but for counsel's errors, he would not have accepted the
plea offer. Id. Nad Petitioner been aware of the Fourth Amendment violations
in his casee he would not have pled No Contest, instead, he would have elected
to go to trial, ^Certiorari should “be granted to correct'"this error.

8

CONCLUSION

For these reasons, a Writ of Certiorari should issue to
review the judgment and opinion of the State of Michigan Court
of Appeals*

Respectfully Submitted,

7*~

ANDI MUSTAFA
Michigan Reformatory Prison
1342 West Main St
Ionia, MI 48846

9

